Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




      Medicare Reimbursement
       of Prescription Drugs




                    JANUARY 2001
                    OEI-03-00-00310
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Philadelphia Regional Office prepared this report under the direction of Robert A. Vito,
Regional Inspector General, and Linda M. Ragone, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                               HEADQUARTERS

David Tawes, Project Leader                          Stuart Wright, Program Specialist
Tara Schmerling, Program Analyst                     Linda Moscoe, Technical Support Staff



 To obtain copies of this report, please call the Philadelphia Regional Office at (800) 531-9562.
         Reports are also available on the World Wide Web at our home page address:

                                   http://www.hhs.gov/oig/oei
                        EXECUTIVE                    SUMMARY

PURPOSE

         This inspection compares Medicare reimbursement for prescription drugs to costs incurred
         by the Department of Veterans Affairs, the physician/supplier community, and Medicaid.


BACKGROUND

         Medicare does not pay for most outpatient prescription drugs. However, Medicare Part B
         will cover certain prescription drugs under specific circumstances. Medicare and its
         beneficiaries paid $3.9 billion for prescription drugs in 1999. The Health Care Financing
         Administration (HCFA) requires its local carriers and four durable medical equipment
         regional carriers (DMERCs) to establish reimbursement amounts for covered drugs. In
         general, the Medicare reimbursement amount for a covered drug is 95 percent of the
         drug’s average wholesale price (AWP). Of this amount, Medicare pays 80 percent while
         the beneficiary is responsible for a 20 percent copayment.

         Each State Medicaid agency has the authority to develop its own drug reimbursement
         methodology subject to upper limits set by HCFA. Additionally, Medicaid receives
         rebates from drug manufacturers as required by Federal law. Unlike Medicare and
         Medicaid, the Department of Veterans Affairs (VA) purchases drugs for its healthcare
         system directly from manufacturers or wholesalers. Physicians and suppliers can purchase
         drug products through closed pharmacies, group purchasing organizations, wholesalers,
         and directly from manufacturers.

         For 24 drugs with the highest total Medicare payments in 1999, we compared Medicare’s
         current reimbursement amount for each drug to prices available to the VA and the
         physician/supplier community, as well as to Medicaid rebate amounts.


FINDINGS

Medicare and its beneficiaries would save $1.6 billion a year if 24 drugs were
reimbursed at amounts available to the VA

         After comparing the median Medicare reimbursement amount with the corresponding
         median VA acquisition cost for 24 drugs, we estimated that Medicare and its beneficiaries
         would save $1.6 billion a year if the Medicare reimbursement amounts for the drugs
         equaled prices obtained by the VA under the Federal Supply Schedule. The estimated
         savings represents 52 percent of the $3.1 billion in reimbursement that Medicare and its
         beneficiaries paid for these 24 drugs in 1999. The VA paid between 8

Medicare Reimbursement of Prescription Drugs     i                                   OEI-03-00-00310
         and 91 percent less than Medicare for the 24 drugs reviewed. Medicare paid more than
         double the VA price for 12 of the reviewed drugs.

Medicare and its beneficiaries would save $761 million a year by paying the
actual wholesale price for 24 drugs

         We estimated that Medicare payments for 24 drugs exceeded actual wholesale prices by
         $761 million a year. This represents 25 percent of the $3.1 billion Medicare and its
         beneficiaries paid for these drugs in 1999. Actual wholesale prices were between 6 and 84
         percent below Medicare reimbursement amounts for the 24 drugs. Four of the drugs had
         median catalog prices that were less than half the Medicare amount. One of these drugs
         had a Medicare reimbursement amount more than six times higher than the median catalog
         price.

Medicare would save over $425 million a year on 24 drugs by obtaining rebates
equal to those in the Medicaid program

         We estimated that Medicare would save $429 million a year on the 24 reviewed drugs by
         collecting rebates equal to those negotiated by the Medicaid program. These rebates
         would lower Medicare spending on these 24 drugs by almost 15 percent.

Carriers are not establishing consistent drug reimbursement amounts for certain
drugs

         Although Medicare’s reimbursement methodology states that drugs are reimbursed at 95
         percent of AWP, we found differences in drug reimbursement amounts between local
         carriers. Six of the 21 drugs whose reimbursement amounts are set by local carriers had
         more than a 10 percent difference between the lowest and highest reimbursement amount.
         The most egregious was J0640 (leucovorin calcium), with one carrier reimbursing $17.51
         and another reimbursing $35.47. The variation in reimbursement amounts was not present
         for the three drugs reimbursed by DMERCs.


RECOMMENDATIONS

The HCFA should reduce excessive Medicare drug reimbursement amounts

         Despite numerous attempts by HCFA to lower Medicare drug reimbursement, the findings
         of this report illustrate once again that Medicare simply pays too much for prescription
         drugs. The published AWPs that Medicare carriers currently use to establish
         reimbursement amounts bear little or no resemblance to actual wholesale prices that are
         available to physicians, suppliers, and other large government purchasers. We believe that
         HCFA’s attempts to use the more accurate AWPs supplied by First Databank, publisher of
         a drug pricing compendium used by the drug industry, is a significant first step towards
         reimbursing drugs in a more appropriate manner. However, we believe that HCFA should
         continue to seek additional administrative and legislative remedies to reduce excessive
         drug reimbursement amounts.
Medicare Reimbursement of Prescription Drugs     ii                                   OEI-03-00-00310
         We believe there are a number of options available to HCFA for implementing this
         recommendation, including: (1) continuing to collect more accurate average wholesale
         prices from drug pricing catalogs, (2) basing payment on physician/supplier acquisition
         costs, (3) establishing manufacturers’ rebates similar to those used in the Medicaid
         program, (4) creating a fee schedule for covered drugs based on Department of Veterans
         Affairs prices, and (5) utilizing the inherent reasonableness authority.

The HCFA should require all carriers to reimburse a uniform amount for each
drug

         We believe that the pricing differences among local carriers for individual drug codes is
         problematic. The amount which physicians and suppliers are reimbursed for drugs should
         not depend on which carrier they bill. The DMERCs have been able to adopt uniform
         pricing for the drugs which they cover, and we expect that local carriers should be able to
         do the same. In a 1997 report which noted similar problems, we recommended two
         options to correct pricing differences: (1) the HCFA could supply all carriers with list of
         average wholesale prices that it has determined represent each drug code, or (2) the
         HCFA could contract with a single entity to calculate drug reimbursement amounts and
         then distribute the amounts to each carrier. We continue to recommend that HCFA
         undertake one of these options.

Agency Comments

         The HCFA concurred with our recommendation that reimbursement amounts for
         Medicare-covered drugs should be lowered, noting that the current AWP-based
         reimbursement method creates incentives for price inflation, distorts clinical decisions, and
         cheats taxpayers. The HCFA also explained that some providers now rely on inflated drug
         payments to cover other practice expenses. The HCFA believes that any price reductions
         need to take these expenses into account. Nevertheless, the HCFA strongly agreed that
         the payment of inflated drug prices is an inappropriate way to compensate practitioners
         and suppliers for inadequate reimbursement of other practice costs. The HCFA also
         agreed with our recommendation that Medicare carriers should be required to reimburse
         uniform amounts for covered drugs. The full text of HCFA’s comments is presented in
         Appendix F.




Medicare Reimbursement of Prescription Drugs      iii                                   OEI-03-00-00310
                             TABLE                    OF          CONTENTS

                                                                                                                        PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS


          Medicare Reimbursement Compared to Department of Veterans Affairs . . . . . . . . . . . . . 6


          Medicare Reimbursement Compared to Actual Wholesale Prices . . . . . . . . . . . . . . . . . . 7


          Potential Savings Based on Medicaid Rebates . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


          Variation in Reimbursement Amounts Among Local Carriers . . . . . . . . . . . . . . . . . . . . . 8


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


APPENDICES


          A: Previous OIG Reports on Medicare Drug Reimbursement . . . . . . . . . . . . . . . . . . . . 12


          B: Description of HCPCS Codes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


          C: Medicare Carrier Reimbursement Amounts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


          D: Medicare Savings Based on Department of Veterans Affairs Prices . . . . . . . . . . . . . 16


          E: Medicare Savings Based on Physician/Supplier Prices . . . . . . . . . . . . . . . . . . . . . . . 17


          F: Health Care Financing Administration Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

                                    INTRODUCTION

PURPOSE

         This inspection compares Medicare reimbursement for prescription drugs to costs incurred
         by the Department of Veterans Affairs, the physician/supplier community, and Medicaid.


BACKGROUND

Medicare Drug Reimbursement

         Medicare does not pay for over-the-counter or most outpatient prescription drugs.
         However, under specific circumstances, Medicare Part B covers drugs used with durable
         medical equipment (DME) or infusion devices. Medicare also covers certain drugs used in
         association with organ transplantation, dialysis, chemotherapy, and pain management.
         Additionally, the program covers certain vaccines, such as those for influenza and hepatitis
         B. Medicare beneficiaries are responsible for paying a 20 percent copayment on these
         drugs. Medicare and its beneficiaries paid approximately $3.9 billion for prescription
         drugs in 1999.

         Physicians and suppliers usually bill Medicare directly for the prescription drugs they
         provide to beneficiaries. The Health Care Financing Administration (HCFA), which
         administers the Medicare program, contracts with local carriers and four DME regional
         carriers (DMERCs) to process Part B claims and establish a reimbursement amount for
         covered drugs based on Medicare’s reimbursement methodology.

         Medicare’s current reimbursement methodology for prescription drugs is defined by
         Section 4556 of the Balanced Budget Act of 1997. The HCFA requires carriers to base
         their reimbursement amount for a covered drug on its average wholesale price (AWP) as
         published in Drug Topics Red Book or similar pricing publications used by the
         pharmaceutical industry. If a drug is available only in brand form, reimbursement is
         calculated by taking 95 percent of the drug’s AWP. For drugs that have both brand and
         generic sources available, reimbursement is based on 95 percent of the median AWP for
         generic sources. However, if a brand name product’s AWP is lower than the median
         generic AWP, Medicare reimburses 95 percent of the lowest brand AWP.

Department of Veterans Affairs Drug Reimbursement

         Unlike Medicare, the Department of Veterans Affairs (VA) purchases drugs for its
         healthcare system directly from manufacturers or wholesalers. There are several purchase
         options available to the VA, including the Federal Supply Schedule (FSS), Blanket
         Purchase Agreements, and VA national contracts.


Medicare Reimbursement of Prescription Drugs      1                                    OEI-03-00-00310
         The FSS provides agencies like the VA with a simple process for purchasing commonly-
         used products in various quantities while still obtaining the discounts associated with
         volume buying. Using competitive procedures, contracts are awarded to companies to
         provide services and supplies at the FSS price over a given period of time. Agencies are
         not required to use the Federal Supply Schedule, however, and are sometimes able to
         negotiate prices lower than the FSS price.

Sources of Prescription Drugs for Physicians and Suppliers

         Physicians and suppliers can purchase drug products through closed pharmacies, group
         purchasing organizations (GPOs), wholesalers, and directly from manufacturers. Closed
         pharmacies purchase pharmaceuticals from manufacturers and wholesalers and in turn sell
         the products to healthcare providers. Generally, closed pharmacies do not dispense drugs
         to the public. Group purchasing organizations provide their members with lower cost
         products by negotiating prices for specific drugs from manufacturers. The member can
         then purchase drugs at the negotiated price either directly from the manufacturer or from a
         wholesaler who accepts the GPO’s price. Wholesalers purchase large volumes of drugs
         from manufacturers and sell them directly to physicians, suppliers, and pharmacies.

Medicaid Drug Reimbursement

         Each State Medicaid agency has the authority to develop its own drug reimbursement
         methodology subject to upper limits set by HCFA. Like Medicare, most Medicaid
         agencies use a discounted average wholesale price as the basis for calculating drug
         reimbursement amounts. Medicaid agencies generally use a more deeply-discounted
         average wholesale price than does Medicare. Additionally, Medicaid receives rebates
         from drug manufacturers as required by Federal law. In 1999, the quarterly rebate for
         brand-name drugs was based on either 15.1 percent of the average manufacturer price
         (AMP) or the difference between the AMP and the best price, whichever was greater.
         The AMP is the average price paid by wholesalers for products distributed for retail trade.
         The best price is the lowest price paid by any purchaser with the exception of Federal
         agencies and State pharmaceutical assistance programs. The rebate amount for generic
         drugs was 11 percent of AMP.

Recent Attempts to Lower Medicare Reimbursement

         Section 4316 of the Balanced Budget Act of 1997 allows HCFA to diverge from the
         statutorily-defined payment method if the method results in payment amounts which are
         not inherently reasonable. In late 1998, HCFA attempted to use this authority to lower
         what it considered excessive reimbursement for several items. One drug, albuterol, was
         targeted for an 11 percent fee reduction. However, before any of the lower prices could
         be implemented, Congress suspended the use of inherent reasonableness through a
         provision of the Medicare, Medicaid, and SCHIP Balanced Budget Refinement Act of
         1999. This provision required the General Accounting Office (GAO) to complete a study
         on the potential effects of using inherent reasonableness measures before HCFA could
         invoke the authority. The GAO report, issued on July 5, 2000, found that inherent


Medicare Reimbursement of Prescription Drugs      2                                    OEI-03-00-00310
         reasonableness reductions for some items were justified. However, the GAO questioned
         the methodology the DMERCs used in their collection of pricing data for albuterol sulfate.

         The HCFA has also included several nebulizer drugs in a competitive bidding project in
         Texas which seeks to use market forces to set accurate prices for DME and related
         supplies. In November 2000, HCFA announced the selection of DME suppliers who had
         submitted competitive bids for the included items. New prices for these items will go into
         effect beginning February 1, 2001. According to HCFA, the new reimbursement amounts
         for the effected nebulizer drugs are approximately 26 percent below the typical Medicare
         price. The HCFA hopes to use the results from these demonstrations more generally in
         the Medicare program.

         On May 31, 2000, HCFA announced plans for Medicare to utilize newly available AWPs
         developed for Medicaid as a result of Department of Justice (DOJ) investigations. The
         DOJ obtained the pricing data from several drug wholesale catalogs, and provided it to
         First Databank, publisher of a pricing compendium used by the pharmaceutical industry.
         The HCFA estimated that the 50 drugs identified by the DOJ represented approximately
         one-third of Medicare payments for prescription drugs. However, legislation passed by
         Congress on December 21, 2000 required GAO to complete a comprehensive drug pricing
         study before HCFA could begin using the new lower prices.

Physician Concerns About Reimbursement

         Some physician groups have raised concerns about Medicare’s attempts to lower
         reimbursement for prescription drugs. For example, some state that Medicare does not
         adequately reimburse physicians for the practice costs associated with providing treatment
         to cancer patients. These physician groups assert that overpayments for prescription
         drugs simply make up for inadequate payments for other practice costs. While we agree
         that physicians need to be properly reimbursed for patient care, the analysis of such
         practice costs is beyond the scope of this study. We believe, however, that the use of
         inflated drug prices is an inappropriate way for Medicare to address this issue.

Related Work by the Office of Inspector General

         The Office of Inspector General (OIG) has studied a number of issues relating to Medicare
         reimbursement of prescription drugs. Brief summaries of selected studies are presented in
         Appendix A.


METHODOLOGY

         We collected data from five sources. We accessed HCFA’s National Claims History file
         and obtained Medicare drug payment and utilization data for 1999. We contacted
         Medicare carriers to determine current Medicare reimbursement amounts for covered
         drugs. We obtained drug payment amounts from the VA and physician/supplier pricing



Medicare Reimbursement of Prescription Drugs      3                                   OEI-03-00-00310
         information from various drug catalogs. We collected Medicaid drug rebate data from
         HCFA’s Medicaid Drug Rebate Initiative system.

Selecting Drugs for Review

         Medicare identifies covered drugs using HCFA’s Common Procedure Coding System
         (HCPCS). The HCPCS codes define the type of drug and, in most cases, a dosage
         amount. Initially, we focused our study on the 30 HCPCS codes with the highest total
         Medicare payments in 1999. These 30 codes represented 85 percent of the $3.9 billion in
         total Medicare payments for drugs in 1999.

         We removed several of the 30 HCPCS codes from our review. We removed code J9999
         because it is defined as “not otherwise classified, antineoplastic drug.” We also removed
         any HCPCS code which did not have pricing information available from each source (VA,
         Medicaid, and drug catalogs). Five drugs were removed because they did not meet the
         three-source criteria: J1561, J7190, J7192, J7320, and J7502. The 24 remaining HCPCS
         codes accounted for 79 percent ($3.1 billion) of the $3.9 billion in Medicare payments for
         prescription drugs in 1999. Claims for 21 of the 24 codes are processed by local carriers.
         These drugs would most likely be purchased and administered by physicians. The
         remaining three drugs are used with a piece of DME called a nebulizer and would most
         likely be provided by a DME supplier or pharmacy. Claims for these drugs are processed
         by the DMERCs. A final list of the 24 HCPCS codes under review and their definitions is
         presented in Appendix B.

Medicare Reimbursement

         Because Medicare does not have uniform national reimbursement amounts for prescription
         drugs, we collected reimbursement information from various carriers. We obtained
         second-quarter 2000 reimbursement amounts for the 21 HCPCS codes covered by local
         carriers. We collected this information by contacting the 10 carriers with the highest
         utilization for these drugs in 1999. We also received Medicare reimbursement amounts
         from the four DMERCs for the three nebulizer drugs in our review. To determine a single
         Medicare allowed amount, we calculated median prices for each HCPCS code based on
         this information. Tables listing the carriers and DMERCs and their reimbursement
         amounts for the HCPCS codes are presented in Appendix C.

Matching HCPCS Codes to National Drug Codes

         Unlike Medicare, Medicaid and the VA use national drug codes (NDCs) rather than
         HCPCS codes to identify drugs products. Because of these coding differences, we used
         the January 2000 CD-ROM edition of Drug Topics Red Book to identify the specific
         NDCs that would match the HCPCS code definition for each drug. Every drug
         manufactured or distributed in the United States has a unique NDC. The NDCs identify
         the manufacturer of the drug, the product dosage form, and the package size. From the
         NDCs, drugs can be identified as either brand or generic. Whenever possible, we selected
         NDCs that met the exact dosage defined in the HCPCS code description. When this was
         not possible, we chose NDCs with doses where a conversion factor to the

Medicare Reimbursement of Prescription Drugs     4                                    OEI-03-00-00310
         HCPCS definition could be readily determined. Several HCPCS had only one equivalent
         NDC, while others had 10 or more matches.

VA Pricing

         We obtained a file from the VA containing second-quarter 2000 contract acquisition costs.
         We selected the Federal Supply Schedule price for comparison purposes; however, some
         drugs had lower prices available to the VA based on other contractual methods. If the
         dosage of an NDC did not meet the HCPCS definition, we used a conversion factor to
         ensure that the VA price and Medicare price were for equivalent amounts. We then
         determined a single VA price for each HCPCS code by calculating the median price for its
         corresponding NDCs.

Physician/Supplier Drug Costs

         To determine actual wholesale prices for the top drugs, we reviewed year 2000 print and
         online catalogs from five drug wholesalers and one group purchasing organization. The
         six pricing sources we used provide pharmaceutical products to physician practices and
         closed pharmacies. We decided that each HCPCS code under review must have prices for
         matching NDCs in at least three of the six catalogs. If the dosage of an NDC did not meet
         the HCPCS definition, we used a conversion factor to ensure that the catalog price and
         Medicare price were for equivalent amounts. We then computed a single catalog price for
         each HCPCS codes by calculating the median price for its corresponding NDCs.

Medicaid Rebates

         We accessed the Medicaid Drug Rebate Initiative system to determine the Medicaid rebate
         amounts for each drug. We used the fourth quarter 1999 rebate amounts for each NDC
         code. For many NDCs, the listed rebate was for a dosage amount which was different
         than the HCPCS dosage amount. In these cases, a conversion factor was used to calculate
         a rebate for the equivalent dosage. We then computed a single rebate amount for each
         HCPCS code by calculating the median rebate for its corresponding NDCs.

Calculating Potential Medicare Savings

         To calculate potential Medicare savings, we compared Medicare’s reimbursement amount
         for the 24 HCPCS codes to amounts available through the VA and wholesale drug
         catalogs. We determined the percentage difference in prices by subtracting the source
         price from the Medicare price, and then dividing this number by the Medicare price.
         These percentages indicate how much Medicare would save if reimbursement for each
         drug was based on prices available through the other sources. We then multiplied these
         percentages by Medicare’s 1999 total payment for each HCPCS code to calculate dollar
         savings. To determine potential savings based on Medicaid rebates, we divided the
         median Medicaid rebate amount for each drug by its Medicare reimbursement amount.
         We then multiplied the result by Medicare’s 1999 total payment for each HCPCS code to
         calculate dollar savings.


Medicare Reimbursement of Prescription Drugs     5                                   OEI-03-00-00310
                                                FINDINGS

 Medicare and its beneficiaries would save $1.6 billion a year
 if 24 drugs were reimbursed at amounts available to the VA
 Medicare spending for 24 drugs would be cut in half if Medicare reimbursement
 amounts equaled VA cost

          After comparing the median Medicare reimbursement amount with the corresponding
          median VA acquisition cost for 24 drugs, we estimate that Medicare and its beneficiaries
          would save $1.6 billion a year if Medicare’s reimbursement amounts for the drugs equaled
          prices obtained by the VA under the Federal Supply Schedule. These savings represent 52
          percent of the $3.1 billion that Medicare and its beneficiaries paid for these 24 drugs in
          1999.

          The estimated savings for individual drugs ranged from a high of $351 million for J9217
          (leuprolide acetate) to a low of $9.4 million for J9390 (vinorelbine tartrate). Drugs with
          estimated annual savings greater than $50 million are listed in Table 1. A complete list of
          the 24 drugs, Medicare reimbursement, VA costs, and potential savings is provided in
          Appendix D.

                   Table 1: Drugs with Estimated Savings Over $50 Million a Year
                                                                                   1999  ESTIMATED
HCPCS                                           MEDICARE         VA      PERCENT ALLOWED MEDICARE
CODE        GENERIC DRUG NAME                    MEDIAN        MEDIAN    SAVINGS CHARGES  SAVINGS
J9217     Leuprolide acetate, 7.5 mg             $592.60       $257.00    56.6%   $620,102,889 $351,175,379
J7619     Albuterol, per mg                       $0.47         $0.07     85.1%   $246,136,877 $209,478,193
J7644     Ipratropium bromide, per mg             $3.34          $.84     74.9%   $250,916,635 $187,811,853
J9202     Goserelin acetate, 3.6 mg              $446.49       $214.87    51.9%   $321,485,273 $166,772,870
Q0136     Epoetin alpha, 1000 units              $11.40         $7.22     36.7%   $379,708,697 $139,226,522
J9265     Paclitaxel, 30 mg                      $173.49       $107.59    38.0%   $249,940,717   $94,939,727
J9045     Carboplatin, 50 mg                     $101.37        $41.14    59.4%   $116,254,013   $69,073,485
J0640     Leucovorin calcium, 50 mg              $18.02         $1.63     91.0%    $66,740,227   $60,703,236



 The VA paid between 15 and 91 percent less than the Medicare reimbursement
 amount for the 24 drugs reviewed

          Medicare reimbursement amounts were greater than VA cost for every drug in our review.
          However, there was substantial variation in the difference between Medicare
          reimbursement and VA cost among the 24 drugs. Twelve of the drugs in our study had
          Medicare reimbursement amounts that were more than double the VA price. For six of
          these drugs, Medicare reimbursed between 3 and 11 times the VA price. The difference
          between Medicare reimbursement and VA cost was less than 20 percent for only two of

 Medicare Reimbursement of Prescription Drugs              6                                OEI-03-00-00310
               the 24 drugs. Furthermore, several drugs had even lower prices available to the VA
               through other contractual methods. A comparison of Medicare reimbursement amounts,
               VA costs, and actual wholesale prices for selected drugs appears in Chart 1.

                                        Chart 1: Price Comparisons for Selected Drugs

                $50

                $45                        VA                                                                                 $42.92

                                           Wholesale
                $40
                                           Medicare
                $35

                $30
       PRICE




                $25

                $20                                                                                 $18.54
                                        $18.02

                                                                  $14.82
                                                                                           $13.81
                $15
                                                                                                                     $10.08
                $10                                       $8.29                    $7.81
                                                                                                             $6.29
                                                  $4.95
                 $5             $2.94
                        $1.63


                 $0
                                J0640                     J1260                            J1626                     J9000
                                                                           HCPCS




Medicare and its beneficiaries would save $761 million a year
by paying the actual wholesale price for 24 drugs

Medicare spending for 24 drugs would be reduced by one-fourth if Medicare
reimbursement amounts equaled prices available to physicians and suppliers

               We estimate that Medicare payments for 24 drugs exceeded actual wholesale prices by
               $761 million a year. This represents 25 percent of the $3.1 billion Medicare and its
               beneficiaries reimbursed for these drugs in 1999. The difference between catalog prices
               and Medicare reimbursement amounts for J9217 (leuprolide acetate) accounted for almost
               $100 million in potential savings. Furthermore, if Medicare reimbursed only the three
               nebulizer drugs in our study (J7608, J7619, J7644) based on actual wholesale prices rather
               than AWP, the program would save over $325 million a year. A complete list of the 24
               drugs, Medicare reimbursement, catalog prices, and potential savings is provided in
               Appendix E.

Medicare Reimbursement of Prescription Drugs                               7                                                     OEI-03-00-00310
Actual wholesale prices were between 6 and 84 percent below Medicare
reimbursement amounts for 24 drugs

         Medicare reimbursement amounts were greater than catalog prices for every drug in our
         review. However, there were significant differences between Medicare reimbursement
         amounts and actual wholesale prices for many drugs. Four of the drugs in our study had
         Medicare reimbursement amounts that were more than double the median catalog price.
         One of these drugs had a Medicare reimbursement amount more than six times higher than
         the median catalog price. A chart illustrating Medicare reimbursement amounts, VA costs,
         and actual wholesale prices for selected drugs appears on the previous page.



Medicare would save over $425 million a year on 24 drugs by
using Medicaid’s rebate program

         We estimate that Medicare would save $429 million a year on 24 drugs by collecting
         rebates equal to those negotiated by the Medicaid program. These rebates would lower
         Medicare spending on these 24 drugs by almost 15 percent. Medicare would save more
         than $50 million on both J9217 (leuprolide acetate) and Q0136 (epoetin alfa, non-ESRD)
         by utilizing the Medicaid rebate. Seven of the 24 drugs under review had Medicaid rebates
         that would discount the Medicare reimbursement amount by more than 30 percent.

Carriers are not establishing consistent drug reimbursement
amounts for certain drugs
         Medicare’s reimbursement methodology states that covered drugs are reimbursed at 95
         percent of AWP; therefore, geographical considerations are not taken into account.
         However, we found differences in the reimbursement amounts between local carriers.
         There was no variation in the reimbursement amounts for the three drugs reimbursed by the
         DMERCs.

         For some HCPCS codes, the difference in prices between local carriers was significant. Six
         of the 21 drugs with carrier-established reimbursement amounts had more than a 10
         percent difference between the lowest and highest reimbursement amount. The most
         egregious was J0640 (leucovorin calcium), with one carrier reimbursing $17.51 and
         another reimbursing $35.47. Pricing for J9000 (doxorubicin) also varied greatly, with
         reimbursement amounts ranging from $38.03 to $52.44. Drugs which had more than a 10
         percent price variation between carriers are listed in Table 2 on page 9. A table listing the
         carriers and DMERCs and their reimbursement amount for all 24 HCPCS codes is
         presented in Appendix C.




Medicare Reimbursement of Prescription Drugs       8                                   OEI-03-00-00310
                        Table 2: Variation in Medicare Prices for Selected Drugs
                                               Median        Minimum    Maximum    Difference Between
          HCPCS                                Medicare      Medicare   Medicare     Minimum and
           Code         Generic Drug Name      Amount         Amount     Amount    Maximum Amount

           J0640        Leucovorin Calcium      $18.02        $17.51     $35.47         102.6%

           J1562        Immune Globulin        $396.63        $380.00    $439.38         15.6%

           J2820        Sargromostim            $27.41        $23.95     $27.42          14.5%

           J9000        Doxorubicin HCl         $42.92        $38.03     $52.44          37.9%

           J9217        Leuprolide Acetate     $592.60        $564.65    $623.79         10.5%

           J9350        Topotecan              $573.75        $546.44    $602.44         10.2%



         Inconsistency in drug reimbursement amounts among Medicare carriers is not a new
         problem. A previous OIG report released in December 1997, Excessive Medicare
         Payments for Prescription Drugs, found similar variations. This previous report identified
         three likely causes for pricing discrepancies: (1) decisions regarding when to update
         reimbursement amounts, (2) the choice of pricing compendia used to determine AWPs, and
         (3) the selection of particular NDCs to meet the HCPCS code definition.




Medicare Reimbursement of Prescription Drugs             9                              OEI-03-00-00310
                            RECOMMENDATIONS

The HCFA should reduce excessive Medicare drug reimbursement amounts

         Despite numerous attempts by HCFA to lower Medicare drug reimbursement, the findings
         of this report illustrate once again that Medicare simply pays too much for prescription
         drugs. The published AWPs that Medicare carriers currently use to establish
         reimbursement amounts bear little or no resemblance to actual wholesale prices that are
         available to physicians, suppliers, and other large government purchasers. We believe that
         HCFA’s attempts to use the more accurate AWPs supplied by First Databank is a
         significant first step towards reimbursing drugs in a more appropriate manner. However,
         we believe that HCFA should continue to seek additional administrative and legislative
         remedies to reduce excessive drug reimbursement amounts.

         We believe there are a number of options available to HCFA for implementing this
         recommendation, including: (1) continuing to collect more accurate average wholesale
         prices from drug pricing catalogs, (2) basing payment on physician/supplier acquisition
         costs, (3) establishing manufacturers’ rebates similar to those used in the Medicaid
         program, (4) creating a fee schedule for covered drugs based on Department of Veterans
         Affairs prices, and (5) utilizing the inherent reasonableness authority.

The HCFA should require all carriers to reimburse a uniform amount for each drug

         We believe that the pricing differences among local carriers for individual drug codes is
         problematic. The amount which physicians and suppliers are reimbursed for drugs should
         not depend on which carrier they bill. The DMERCs have been able to adopt uniform
         pricing for the drugs which they cover, and we expect that local carriers should be able to
         do the same. In a 1997 report which noted similar problems, we recommended two
         options to correct pricing differences: (1) the HCFA could supply all carriers with list of
         average wholesale prices that it has determined represent each drug code, or (2) the HCFA
         could contract with a single entity to calculate drug reimbursement amounts and then
         distribute the amounts to each carrier. We continue to recommend that HCFA undertake
         one of these options.

Agency Comments

         The HCFA concurred with our recommendation that reimbursement amounts for
         Medicare-covered drugs should be lowered, noting that the current AWP-based
         reimbursement method creates incentives for price inflation, distorts clinical decisions, and
         cheats taxpayers. The HCFA also explained that some providers now rely on inflated drug
         payments to cover other practice expenses. The HCFA believes that any price reductions
         need to take these expenses into account. Nevertheless, the HCFA strongly agreed that the
         payment of inflated drug prices is an inappropriate way to compensate practitioners and
         suppliers for inadequate reimbursement of other practice costs.


Medicare Reimbursement of Prescription Drugs      10                                   OEI-03-00-00310
         The HCFA also agreed with our recommendation that Medicare carriers should be required
         to reimburse uniform amounts for covered drugs. The full text of HCFA’s comments is
         presented in Appendix F.




Medicare Reimbursement of Prescription Drugs   11                                OEI-03-00-00310
                                                                          APPENDIX            A



     Previous OIG Reports on Medicare Drug Reimbursement
Medicare Reimbursement of Albuterol (OEI-03-00-00311), June 2000. We found that

Medicare and its beneficiaries would save $120 million or $209 million a year if albuterol was

reimbursed at amounts available through Medicaid and the VA, respectively. Medicare and its

beneficiaries would save $47 million or $115 million a year if Medicare reimbursed albuterol at

prices available at chain and Internet pharmacies.


Medicare Reimbursement of End Stage Renal Disease Drugs (OEI-03-00-00020), June 2000.

We found that Medicare reimbursement amounts would be nearly halved for five ESRD drugs if

amounts were based on VA acquisition costs. In addition, Medicare would save between 5 and 38

percent if its reimbursement amounts were equal to Medicaid reimbursement including rebates. 


Comparing Drug Reimbursement: Medicare and the Department of Veterans Affairs

(OEI-03-97-00293), November 1998. We found that Medicare and its beneficiaries would save

$1 billion in 1998 if the allowed amounts for 34 drugs were equal to prices obtained by the VA. 

Furthermore, Medicare allowed between 15 and 1600 percent more than the VA for the 34 drugs

reviewed.


Are Medicare Allowances for Albuterol Sulfate Reasonable? (OEI-03-97-00292), 

August 1998. We found that Medicare would allow between 56 to 550 percent more than the VA

would pay for generic versions of albuterol sulfate in 1998, and 20 percent more than the average

Medicaid payment for albuterol sulfate in 1997. Additionally, Medicare allowed 333 percent more

than available acquisition costs for the drug in 1998. Customers of mail-order pharmacies would

pay up to 30 percent less than Medicare for albuterol sulfate in 1998. 


The Impact of High-Priced Generic Drugs on Medicare and Medicaid (OEI-03-97-00510),

July 1998. We found that Medicare and its beneficiaries could have saved between $5 million and

$12 million for four drugs if reimbursement had not been based on higher-priced generic versions. 

Florida’s Medicaid program would have saved half a million dollars for eight drugs in 1996 if

higher-priced generic drugs had been reimbursed at brand prices.


Excessive Medicare Payments for Prescription Drugs (OEI-03-97-00290), December 1997. 

We found that Medicare allowances for 22 drugs exceeded actual wholesale prices by $447 million

in 1996. For more than one-third of the 22 drugs reviewed, Medicare allowed amounts were more

than double the actual wholesale prices available to physicians and suppliers. Furthermore, we

found that there was no consistency among Medicare carriers in establishing and updating drug

reimbursement amounts. 





Medicare Reimbursement of Prescription Drugs    12                                   OEI-03-00-00310
                                                                           APPENDIX            A


Appropriateness of Medicare Prescription Drug Allowances (OEI-03-96-00420), May 1996.
We found that under a drug rebate program similar to Medicaid’s, Medicare would have saved
$122 million for 17 prescription drugs in 1994. Medicare could have saved an additional $144
million in 1994 had the program employed a discounted AWP drug reimbursement formula. We
also found that the lack of an NDC-based billing system would prevent HCFA from taking
advantage of rebates and other discounted reimbursement formulas.

A Comparison of Albuterol Sulfate Prices (OEI-03-94-00392), June 1996. We found that many
of the pharmacies surveyed charged customers less than the Medicare allowed amount for generic
albuterol sulfate. The five buying groups surveyed had negotiated prices between 56 and 70
percent lower than Medicare’s reimbursement amount for the drug.

Suppliers’ Acquisition Costs for Albuterol Sulfate (OEI-03-94-00393), June 1996. We found
that Medicare’s allowances for albuterol sulfate substantially exceeded suppliers’ acquisition costs
for the drug, and that the program could have saved $94 million during the 14-month review
period if Medicare reimbursement amounts had been based on average supplier invoice costs.

Medicare Payments for Nebulizer Drugs (OEI-03-94-00390), February 1996. We found that
Medicare and its beneficiaries paid about $37 million more for three nebulizer drugs in 17 states
than Medicaid would have paid for equivalent drugs. In addition, we found that the potential
savings were not limited to the three nebulizer drugs and 17 states which were reviewed.




Medicare Reimbursement of Prescription Drugs     13                                   OEI-03-00-00310
                                                                                 APPENDIX           B



                              Description of 24 HCPCS Codes


              2000           1999
             HCPCS          HCPCS        DESCRIPTION
             CODE           CODE
             J0640           J0640       Injection, Leucovorin Calcium, per 50 mg
             J1260           J1260       Injection, Dolasetron Mesylate, 10 mg
             J1440           J1440       Injection, Filgrastim (G-CSF), 300 mcg
             J1441           J1441       Injection, Filgrastim (G-CSF), 480 mcg
             J1562           J1562       Injection, Immune Globulin, intravenous, 5 g
             J1626           J1626       Injection, Granisetron Hydrochloride, per 100 mcg
             J2405           J2405       Injection, Ondansetron HCl, per 1 mg
             J2430           J2430       Injection, Pamidronate Disodium, per 30 mg
             J2820           J2820       Injection, Sargramostim (GM-CSF), 50 mcg
             J7608*         K0503        Acetylcysteine, unit dose form, per gram
             J7619*         K0505        Albuterol Sulfate, unit dose form, per mg
             J7644*         K0518        Ipratropium Bromide, unit dose form, per mg
             J9000           J9000       Injection, Doxorubicin HCl, 10 mg
             J9045           J9045       Injection, Carboplatin, 50 mg
             J9170           J9170       Injection, Docetaxel, 20 mg
             J9201           J9201       Injection, Gemcitabine HCl, 200 mg
             J9202           J9202       Goserelin Acetate implant, per 3.6 mg
             J9206           J9206       Injection, Irinotecan, 20 mg
             J9217           J9217       Leuprolide Acetate (for depot suspension), 7.5 mg
             J9265           J9265       Injection, Paclitaxel, 30 mg
             J9310           J9310       Injection, Rituximab, 100 mg
             J9350           J9350       Injection, Topotecan, 4 mg
             J9390           J9390       Vinorelbine Tartrate, per 10 mg
             Q0136          Q0136        Injection, Epoetin Alpha, (non-ESRD), per 1000 units

          * New HCPCS codes for nebulizer drugs took affect January 1, 2000.




Medicare Reimbursement of Prescription Drugs            14                                 OEI-03-00-00310
                                                                                                   APPENDIX                C




                     Medicare Carrier Reimbursement Amounts


HCPCS         FL             TX      PA         CA           WI         NY        OH          NJ        TN         IL      MEDIAN

 J0640      $35.47       $20.45     $17.51     $17.52       $18.02     $18.51    $18.02      $18.51   $17.93     $18.02        $18.02
 J1260      $15.81       $15.82     $14.80     $14.80       $14.82     $15.81    $14.82      $15.81   $14.70     $14.82        $14.82
 J1440      $171.38     $164.21    $171.38     $171.38     $171.38     $168.00   $171.38    $168.00   $171.38    $171.38       $171.38
 J1441      $273.03     $261.58    $273.03     $273.03     $273.03     $273.03   $273.03    $273.03   $273.03    $273.03       $273.03
 J1562      $380.00     $439.38    $413.25     $380.00     $427.98     $380.00   $380.00    $380.00   $413.25    $427.98       $396.63
 J1626      $18.54       $18.54     $18.54       ---        $18.54     $18.54    $18.54      $18.54   $17.67     $18.54        $18.54
 J2405       $6.08       $6.09      $6.08       $6.09       $6.10       $6.08     $6.10      $6.08     $5.94      $6.10         $6.09
 J2430      $253.20     $253.21    $232.51     $232.51     $253.20     $233.91   $253.20    $233.91   $232.51    $253.20       $243.56
 J2820      $27.41       $24.60     $25.62     $23.95       $27.42     $27.41    $27.42      $27.41   $27.41     $27.42        $27.41
 J9000      $42.81       $50.96     $52.44     $50.96       $42.82     $43.02    $42.82      $43.02   $38.03     $42.82        $42.92
 J9045      $103.84      $94.96     $98.90     $103.84     $103.84     $98.90    $103.84     $98.90   $98.90     $103.84       $101.37
 J9170      $283.65     $283.65    $270.14     $283.65     $283.65     $283.65   $283.65    $283.65   $270.14    $283.65       $283.65
 J9201      $88.46       $88.46     $88.46     $88.46       $88.46     $88.46    $88.46      $88.46   $88.46     $88.46        $88.46
 J9202      $446.49     $446.49    $446.49     $446.49     $446.49     $446.49   $446.49    $446.49   $446.49    $446.49       $446.49
 J9206      $117.81     $117.81    $110.10     $117.81     $117.82     $117.81   $117.82    $117.81   $117.81    $117.82       $117.81
 J9217      $564.91     $565.93    $564.65     $623.79     $592.60     $592.60   $592.60    $592.60   $564.92    $592.60       $592.60
 J9265      $173.49     $166.58    $173.48     $173.50     $173.50     $173.49   $173.50    $173.49   $173.49    $173.50       $173.49
 J9310      $420.28     $420.29    $420.28     $420.29     $420.29     $420.28   $420.29    $420.28   $420.28    $420.29       $420.29
 J9350      $602.44     $602.44    $573.75     $573.75     $573.75     $602.44   $573.75    $602.44   $546.44    $573.75       $573.75
 J9390      $75.50       $72.49     $68.99     $75.51       $75.51     $75.50    $75.51      $75.50   $75.50     $75.51        $75.50
 Q0136      $11.84           ---    $12.00     $11.62       $11.40     $11.40    $11.40      $11.40   $11.40     $11.40        $11.40




  HCPCS         DMERC A            DMERC B         DMERC C             DMERC D            MEDIAN

   J7608           $5.05             $5.05              $5.05            $5.05             $5.05

   J7619             $0.47           $0.47               $0.47           $0.47             $0.47

   J7644           $3.34             $3.34              $3.34            $3.34             $3.34




Medicare Reimbursement of Prescription Drugs                      15                                            OEI-03-00-00310
                                                                                        APPENDIX             D



                                Medicare Savings Based on 

                            Department of Veterans Affairs Prices

                                                                                           1999         ESTIMATED
HCPCS                                              MEDICARE          VA      PERCENT     ALLOWED        MEDICARE
CODE         GENERIC DRUG NAME                      MEDIAN         MEDIAN    SAVINGS*    CHARGES         SAVINGS
 J0640 Leucovorin Calcium, 50 mg                    $18.02          $1.63     91.0%       $66,740,227     $60,703,236
 J1260 Dolasetron Mesylate, 10 mg                   $14.82          $4.95     66.6%       $46,647,272     $31,066,705
 J1440 Filgrastim, 300 mcg                          $171.38        $130.72    23.7%       $47,893,675     $11,362,801
 J1441 Filgrastim, 480 mcg                          $273.03        $208.23    23.7%       $67,411,261     $15,999,157
 J1562 Immune Globulin, 5g                          $396.63        $110.54    72.1%       $43,239,398     $31,188,663
 J1626 Granisetron HCl, 100 mcg                     $18.54          $7.81     57.9%       $46,432,246     $26,872,600
 J2405 Ondansetron HCl, 1 mg                         $6.09          $3.94     35.3%       $47,721,885     $16,847,628
 J2430 Pamidronate Disodium, 30 mg                  $243.56        $203.45    16.5%      $112,916,846     $18,595,396
 J2820 Sargramostim, 50 mcg                         $27.41          $10.06    63.3%       $23,533,251     $14,896,093
 J7608 Acetylcysteine, per g                         $5.05          $1.50     70.3%       $35,908,222     $25,242,413
 J7619 Albuterol Sulfate, per mg                     $0.47          $0.07     85.1%      $246,136,877    $209,478,193
 J7644 Ipratropium Bromide, per mg                   $3.34          $0.84     74.9%      $250,916,635    $187,811,853
 J9000 Doxorubicin HCl, 10 mg                       $42.92          $6.29     85.3%       $27,831,805     $23,753,006
 J9045 Carboplatin, 50 mg                           $101.37         $41.14    59.4%      $116,254,013     $69,073,485
 J9170 Docetaxel, 20 mg                             $283.65        $151.77    46.5%       $58,661,193     $27,273,887
 J9201 Gemcitabine HCl, 200 mg                      $88.46          $74.86    15.4%       $75,256,901     $11,570,132
 J9202 Goserelin Acetate, 3.6 mg                    $446.49        $214.87    51.9%      $321,485,273    $166,772,870
 J9206 Irinotecan, 20 mg                            $117.81         $75.45    36.0%       $79,914,022     $28,734,046
 J9217 Leuprolide Acetate, 7.5 mg                   $592.60        $257.00    56.6%      $620,102,889    $351,175,379
 J9265 Paclitaxel, 30 mg                            $173.49        $107.59    38.0%      $249,940,717     $94,939,727
 J9310 Rituximab, 100 mg                            $420.29        $239.58    43.0%       $71,072,780     $30,558,810
 J9350 Topotecan, 4 mg                              $573.75        $307.25    46.5%       $31,504,581     $14,633,500
 J9390 Vinorelbine Tartrate, 10 mg                  $75.50          $46.20    38.8%       $24,325,270      $9,440,138
 Q0136 Epoetin Alfa, per 1000 units                 $11.40          $7.22     36.7%      $379,708,697    $139,226,522
TOTAL FOR 24 HCPCS                                                                      $3,091,555,936 $1,617,216,241

* To determine percent savings, we subtracted the VA price from the Medicare reimbursement amount. We then
   divided this number by the Medicare reimbursement amount.




    Medicare Reimbursement of Prescription Drugs              16                                   OEI-03-00-00310
                                                                                        APPENDIX            E


          Medicare Savings Based on Physician/Supplier Costs


                                                                                           1999          ESTIMATED
HCPCS                                              MEDICARE CATALOG          PERCENT     ALLOWED         MEDICARE
CODE         GENERIC DRUG NAME                      MEDIAN  MEDIAN           SAVINGS*    CHARGES          SAVINGS
 J0640 Leucovorin Calcium, 50 mg                    $18.02          $2.94     83.7%       $66,740,227      $55,851,422
 J1260 Dolasetron Mesylate, 10 mg                   $14.82          $8.29     44.1%       $46,647,272      $20,553,758
 J1440 Filgrastim, 300 mcg                          $171.38        $144.30    15.8%       $47,893,675       $7,567,748
 J1441 Filgrastim, 480 mcg                          $273.03        $229.90    15.8%       $67,411,261      $10,648,821
 J1562 Immune Globulin, 5g                          $396.63        $300.00    24.4%       $43,239,398      $10,534,309
 J1626 Granisetron HCl, 100 mcg                     $18.54         $13.81     25.5%       $46,432,246      $11,845,983
 J2405 Ondansetron HCl, 1 mg                         $6.09          $5.49      9.9%       $47,721,885       $4,701,664
 J2430 Pamidronate Disodium, 30 mg                  $243.56        $223.26     8.3%      $112,916,846       $9,411,283
 J2820 Sargramostim, 50 mcg                         $27.41         $23.13     15.6%       $23,533,251       $3,674,656
 J7608 Acetylcysteine, per g                         $5.05          $3.38     33.1%       $35,908,222      $11,874,600
 J7619 Albuterol Sulfate, per mg                     $0.47          $0.13     72.3%      $246,136,877     $178,056,464
 J7644 Ipratropium Bromide, per mg                   $3.34          $1.53     54.2%      $250,916,635     $135,975,781
 J9000 Doxorubicin HCl, 10 mg                       $42.92         $10.08     76.5%       $27,831,805      $21,295,351
 J9045 Carboplatin, 50 mg                           $101.37        $87.79     13.4%      $116,254,013      $15,573,932
 J9170 Docetaxel, 20 mg                             $283.65        $238.86    15.8%       $58,661,193       $9,262,947
 J9201 Gemcitabine HCl, 200 mg                      $88.46         $74.49     15.8%       $75,256,901      $11,884,907
 J9202 Goserelin Acetate, 3.6 mg                    $446.49        $375.99    15.8%      $321,485,273      $50,761,969
 J9206 Irinotecan, 20 mg                            $117.81        $98.63     16.3%       $79,914,022      $13,010,364
 J9217 Leuprolide Acetate, 7.5 mg                   $592.60        $499.03    15.8%      $620,102,889      $97,912,635
 J9265 Paclitaxel, 30 mg                            $173.49        $146.10    15.8%      $249,940,717      $39,459,774
 J9310 Rituximab, 100 mg                            $420.29        $353.93    15.8%       $71,072,780      $11,221,751
 J9350 Topotecan, 4 mg                              $573.75        $507.32    11.6%       $31,504,581       $3,647,668
 J9390 Vinorelbine Tartrate, 10 mg                  $75.50         $64.11     15.1%       $24,325,270       $3,669,733
 Q0136 Epoetin Alfa, per 1000 units                 $11.40         $10.72      6.0%      $379,708,697      $22,649,291
TOTAL FOR 24 HCPCS                                                                      $3,091,555,936    $761,046,810

* To determine percent savings, we subtracted the catalog price from the Medicare reimbursement amount. We then
   divided this number by the Medicare reimbursement amount.




    Medicare Reimbursement of Prescription Drugs              17                                   OEI-03-00-00310
                                                    APPENDIX      F



             Health Care Financing Administration Comments





Medicare Reimbursement of Prescription Drugs   18        OEI-03-00-00310
                                                    APPENDIX      F




Medicare Reimbursement of Prescription Drugs   19        OEI-03-00-00310
                                                    APPENDIX      F




Medicare Reimbursement of Prescription Drugs   20        OEI-03-00-00310
                                                    APPENDIX      F




Medicare Reimbursement of Prescription Drugs   21        OEI-03-00-00310
